STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

April 15, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

Libertarian Party of Erie County, et al. v. Cuomo, et al., No. 20-1151
Request for extension of time

Dear Mr. Harris:
On behalf of all respondents in this case, I respectfully request a thirty-day
extension of time to prepare and file a brief in opposition to the petition for a writ of
certiorari. The current deadline for the brief in opposition is April 26, 2021. A thirtyday extension would result in a deadline of May 26, 2021.
Petitioners took 131 days to file their petition for certiorari and this is
respondents’ second request for a thirty-day extension. The press of other business,
including but not limited to matters before this Court, has made it difficult for me
and the Deputy Solicitor General assigned to this case to give it the necessary
attention in the allotted time.
Petitioners’ counsel has stated that petitioners do not consent to this request.
Thank you for your consideration.
Respectfully submitted,

BARBARA D. UNDERWOOD
Solicitor General
cc:

Michael Kuzma (counsel for petitioners)

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

